           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
  COMMONWEALTH OF PENNSYLVANIA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2010

     September 2012   A-77-12-00010




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      September 7, 2012                                                     Refer To:

To:        Amy Thompson
           Senior Advisor
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the Commonwealth of Pennsylvania for
           the Fiscal Year Ended June 30, 2010 (A-77-12-00010)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the Commonwealth of Pennsylvania for the Fiscal Year ended June 30, 2010. 1
           Our objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           The Pennsylvania Auditor General and KPMG, LLP performed the audit. The results of
           the desk review conducted by the Department of Health and Human Services (HHS)
           concluded that the audit met Federal requirements. In reporting the results of the single
           audit, we relied entirely on the internal control and compliance work performed by the
           Pennsylvania Auditor General and KPMG, LLP and the reviews performed by HHS. We
           conducted our review in accordance with the Council of the Inspectors General on
           Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget (OMB) assigns
           Federal programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s
           Disability Insurance (DI) and Supplemental Security Income (SSI) programs are
           identified by CFDA number 96. SSA is responsible for resolving single audit findings
           reported under this CFDA number.

           The Pennsylvania Bureau of Disability Determinations (BDD) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The BDD is reimbursed for 100 percent of allowable costs. The
           Department of Labor and Industry (L&I) is the Pennsylvania BDD’s parent agency.




           1
            Pennsylvania Office of the Budget, Commonwealth of Pennsylvania Single Audit Report for the Fiscal
           Year Ended June 30, 2010.
           http://www.budget.state.pa.us/portal/server.pt/community/financial_reports/4574 (August 7, 2012).
Page 2 – Amy Thompson

The Office of Vocational Rehabilitation (OVR), within L&I, provides vocational
rehabilitation services to Social Security beneficiaries. SSA reimburses OVR for direct
costs of items purchased for these individuals and indirect costs related to
administrative, placement, and counseling services as well as tracking and monitoring
work activity.

The single audit reported:

1. OVR could not provide complete documentation to support SSA reimbursements
   totaling $6,434 for vocational rehabilitation services. The corrective action plan
   indicated that each OVR office would begin reviewing all cases submitted to SSA for
   reimbursement to assure all supporting documentation is included and maintain
   documentation in the Central Office. 2

2. L&I carried forward approximately $1.8 million from prior SSA reimbursements.
   These funds should be treated as program income and expended before additional
   SSA funds are requested. Since additional funds have been drawn since the $1.8
   million was initially received, the Commonwealth of Pennsylvania should pay interest
   on the prior year carry-forward amount. The Commonwealth of Pennsylvania stated
   that the amount was received prior to SSA policy, issued in 1991, requiring
   reimbursements be treated as program income to be expended before any
   additional funds are drawn and no interest liability is associated. 3 However,
   according to the auditor, this period was covered under OMB Circular A-102, which
   is applicable to SSA programs. 4

We recommend that SSA

1. Determine whether the reimbursements to OVR totaling $6,434 were appropriate
   and, if not, request a refund of the unallowable costs.

2. Determine if it is appropriate for the Commonwealth of Pennsylvania to carry forward
   funds from prior year SSA reimbursements.

The single audit also disclosed the following findings that may impact BDD operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency. Specifically, the Commonwealth of Pennsylvania did not



2
 Pennsylvania Office of the Budget, Commonwealth of Pennsylvania Single Audit Report for the Fiscal
Year Ended June 30, 2012, finding 10-63.
3
    SSA Policy Directive RSA-PD92-04 (December 6,1991)
4
 Pennsylvania Office of the Budget, Commonwealth of Pennsylvania Single Audit Report for the Fiscal
Year Ended June 30, 2012, finding 10-104.
Page 3 – Amy Thompson

•   have adequate general computer controls. 5

•   maintain documentation to support contracting and procurement. 6

•   have adequate segregation of duties among invoice processing and vendor
    maintenance rolls. 7

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (877) 405-7694, extension 18802.




                                               Patrick P. O’Carroll, Jr.

cc:
Lynn Bernstein




5
 Pennsylvania Office of the Budget, Commonwealth of Pennsylvania Single Audit Report for the Fiscal
Year Ended June 30, 2012, finding 10-13.
6
 Pennsylvania Office of the Budget, Commonwealth of Pennsylvania Single Audit Report for the Fiscal
Year Ended June 30, 2012, finding 10-14.
7
 Pennsylvania Office of the Budget, Commonwealth of Pennsylvania Single Audit Report for the Fiscal
Year Ended June 30, 2012, finding 10-16.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
